<html>
<title> - COORDINATING AFRICA POLICY ON SECURITY, COUNTERTERRORISM, HUMANITARIAN OPERATIONS AND DEVELOPMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                COORDINATING AFRICA POLICY ON SECURITY,
                     COUNTERTERRORISM, HUMANITARIAN
                       OPERATIONS AND DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2011

                               __________

                           Serial No. 112-100

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
67-598                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e384938ca3809690978b868f93cd808c8ecd">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Y. Yamamoto, Principal Deputy Assistant 
  Secretary, Bureau of African Affairs, U.S. Department of State.     6
The Honorable Vicki Huddleston, Deputy Assistant Secretary of 
  Defense, Office of the Secretary of Defense, U.S. Department of 
  Defense........................................................    12
Ms. Sharon Cromer, Senior Deputy Assistant Administrator, Bureau 
  for Africa, U.S. Agency for International Development..........    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Y. Yamamoto: Prepared statement.............     9
The Honorable Vicki Huddleston: Prepared statement...............    16
Ms. Sharon Cromer: Prepared statement............................    23

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    48
The Honorable Vicki Huddleston:
  Written responses to questions asked during the hearing by the 
    Honorable Christopher H. Smith, a Representative in Congress 
    from the State of New Jersey, and chairman, Subcommittee on 
    Africa, Global Health, and Human Rights......................    49
  Written responses to questions asked for the record by the 
    Honorable Rus Carnahan.......................................    60


COORDINATING AFRICA POLICY ON SECURITY, COUNTERTERRORISM, HUMANITARIAN 
                       OPERATIONS AND DEVELOPMENT

                              ----------                              


                         TUESDAY, JULY 26, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2255 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everybody. Sorry for the delay. We did have a 
series of votes on the House floor so we're a little bit late, 
not too late, but a little bit.
    We are meeting today to examine how the United States' 
policies are being coordinated in Africa from the security, 
counterterrorism, humanitarian, and development perspectives 
since the establishment of the U.S. Africa Command in 2008.
    For decades, despite the wave of African independence in 
the 1950s through the 1970s, many American policy makers did 
not believe Africa held strategic importance to the United 
States. According to one defense analyst, ``During the Cold 
War, the United States' foreign policy toward sub-Saharan 
Africa had little to do with Africa.''
    After the fall of the Soviet Union many U.S. policy makers 
continue to consider the U.S. military's role and 
responsibilities on the continent to be minimal. In 1995, the 
Department of Defense asserted in its U.S. security strategy 
for sub-Saharan Africa that ``ultimately we see very little 
traditional strategic interest in Africa.'' Oh, how they were 
wrong.
    A look at current statistics amply demonstrates that the 
United States does have a strategic and a very strong one in 
sub-Saharan Africa. Over 90 percent of U.S. trade with African 
nations centers on American imports of African oil. Imports 
from Africa comprise of nearly a quarter of all American oil 
imports and promises to increase as new sources of oil continue 
to be found throughout Africa.
    Similarly, African nations have abundant minerals on which 
our modern society depends. In recent years, the mineral 
coltan, largely from Africa, has enabled the development of 
computers, cell phones, and electronic devices. We would be 
hard pressed to construct jet aircraft, automobile catalytic 
converters, or iPods, without the minerals found in Africa and, 
in some cases, almost nowhere else to be found in the world.
    Since the 1998 bombings of the American Embassies in Kenya 
and Tanzania, it has become clear that terrorism can strike the 
United States even in Africa. In fact, the presence of Africans 
on the list of planners of the 1993 and 2001 World Trade Center 
attacks demonstrates that terrorism in Africa is not confined 
to Africa itself and can reach out and strike us even in our 
homeland.
    In a hearing that I chaired on March 12, 1999, on U.S. 
embassy security, Admiral William Crowe, then chairman of the 
Accountability Review Board, said the Kenya and Tanzania 
bombings demonstrated the inadequacy of resources to provide 
security against terrorist attacks as demonstrated by the lack 
of resources devoted to U.S. security at U.S. posts abroad. 
That resulted in what we then called the Embassy Security Act 
of 1999, and I offered it. It became known when it was finally 
enacted as the Admiral Nance and Meg Donovan Foreign Relations 
Act of 2000.
    When I visited Sudan in 2005, government officials in 
Khartoum admitted they had harbored al-Qaeda in the past and 
Security Chief Salah Gosh bragged to me about how close his 
government was to the late Osama bin Laden and al-Qaeda at one 
time. Clearly, we must remain vigilant concerning the existence 
of terrorist organizations that threaten our interests in 
Africa and of course, Africa's people.
    As we have learned during our hearings on Somalia on July 
7th, we are currently in the midst of a huge famine in the Horn 
of Africa as a result of severe drought that is affecting the 
entire eastern Africa region. The drought, said to be the worst 
in 60 years, has caused a severe crisis across Somalia, 
Ethiopia, and Kenya that threatens the livelihood of more than 
12 million people. Other countries in and around the Horn of 
Africa including Djibouti, Sudan, South Sudan, and parts of 
Uganda also are affected by a food crisis.
    Our Government certainly now realizes the importance of 
Africa, but remnants of our policy neglect remain. One example 
of the previous underestimation of Africa's significance was 
the division of American interests in Africa among three 
different combatant commands: The European Command, the Central 
Command and the Pacific Command. Because of their differing 
strategic objectives and goals, Africa was hardly ever a 
primary concern. The creation of the African Command or AFRICOM 
demonstrates the current awareness of the strategic importance 
of Africa, not only for the United States, but for the world in 
general.
    During our country's growing engagement with the nations of 
Africa, our policy toward the continent has been managed by two 
civilian agencies, the Department of State and the U.S. Agency 
for International Development. It is therefore reasonable that 
AFRICOM contains a larger non-DoD civilian staff than has been 
the tradition with other combatant commands, but questions 
remain concerning whether an expanded military presence will 
overshadow the so-called soft power of diplomacy and 
humanitarian developmental assistance.
    DoD officials emphasize that AFRICOM remains under 
development. Some details regarding the command structure and 
footprint are still being reviewed. For example, a decision on 
AFRICOM's final headquarters' location has been postponed until 
2012 and a move to the continent may not occur for several 
years, if at all. This new coordination during the past 3 years 
among the State Department, USAID, and Defense Department, and 
its implications for U.S. policy in Africa as a whole, will be 
the focus of this hearing.
    A former EUCOM commander suggested that the Africa Command, 
with the interagency coordination, would be the pioneer for a 
new approach that other commands might adopt later. We look 
forward to examining the challenges and the success of this 
approach with our very distinguished witnesses.
    I'd like to now yield such time as it may consume to my 
good friend and colleague, Don Payne.
    Mr. Payne. Thank you very much, Mr. Chairman, and let me 
commend you for calling this very important hearing. Today, I 
look forward to the hearing about the recent developments in 
AFRICOM and its mission to collaborate with state and USAID. I 
think that Africa has had its problems as it moved out of 
decolonization following World War II as it started to move for 
independence, but as that occurred, of course, the Cold War 
began. And countries then were judged on what side are you on, 
on the Warsaw Pact nations with the USSR or are you with 
democracy as we were fighting against the Iron Curtain 
countries. And so unfortunately, because of that, dictators 
were put into power not on how they govern, but where they 
stood. And we've seen people like Mobutu in Zaire and Santos in 
Angola and we can go on, so-called constructive engagement in 
South Africa with P. W. Botha, where we looked the other way 
because our main concern was where do you stand against the 
USSR. So unfortunately as democratization came about many 
countries felt all they had to do was to satisfy either the USA 
or the USSR and move along with brutal dictators, mostly 
military persons.
    And so we have seen the difficult transition. We did see a 
wave of democracy move through in the '70s and '80s and '90s 
where countries had excellent elections and we saw the military 
people move out of the leadership of countries and 
democratically elected leaders. Of course, we know AFRICOM was 
first established in 2007, made operational in 2008 to promote 
the U.S. national security objectives in Africa and its 
surrounding areas. Prior to AFRICOM's creation there were, as 
we know, three Department of Defense combatant commands 
covering Africa, U.S. European Command, the U.S. Central 
Command and the U.S. Pacific Command. At that time, current 
U.S. Ambassador Susan Rice, then a Senior Fellow at Brookings 
Institute criticized the three command approach by stating that 
Africa had been the poor stepchild in each of these different 
commands and that it deserved full attention of a U.S. Command.
    Given Africa's strategic importance and the prevalence of 
civil violence and the development challenges on the continent, 
it was felt that it was appropriate for the Department of 
Defense, State Department and USAID to have a coordinated 
approach to addressing security in the region. AFRICOM must 
also adhere to its stated purpose to work with African nations 
and African organizations to build regional security and crisis 
response capacity.
    When AFRICOM was first launched, I voiced concern regarding 
the role it would be playing and the motivation behind its 
creation and much of that came from African leaders. You may 
recall when AFRICOM was announced, General Ward, who we have so 
much respect for him as he recently retired, Four Star General, 
was appointed to lead AFRICOM and did visit a number of African 
countries to inform them about this new command.
    Unfortunately, not much previous announcement was given. 
Meetings were short and quick. Had to do one or two countries 
every other day and I think that it was handled totally poorly. 
And therefore, Africa countries wondered what is this all 
about? And secondly, our Department of Defense, in my opinion, 
did a very poor job of introducing it. African Presidents with 
a number of them wondered well, what is this new thing? Is it 
just because U.S. has interests? Is it watch the Gulf of 
Guinea's oil? Is it fight al-Qaeda? All of these things are 
very positive for the United States of America, but well, 
secondly, what does it mean for us? It's great for you, but 
what about us?
    And so I think that the debacle of the poor manner in which 
the introduction of AFRICOM to African nations was a setback. 
Every single country said thanks, but no thanks except Liberia 
who, as you know, is one of our staunchest allies. And of 
course, the President was looking for the AFRICOM to come to 
Liberia because they need to have additional income. I believe 
that was the main reason.
    So it was handled poorly and it was a setback.
    My primary concern was like I said, it was hastily created, 
although Department of Defense was thinking about it for a long 
time. However, they didn't let others know. Unclear mission and 
the potential of militarizing foreign aid. And that was one of 
the other misconceptions. You had to see the General to see 
whether you were going to get aid or not.
    And as we talk about democracy all through the '70s and 
'80s and '90s and said do away with the generals, they 
shouldn't be in charge of government. They shouldn't be the 
ones you go to for assistance and for jobs and we looked like 
we were putting a general in charge of what agency should get 
the aid or the food or should the children get it or the 
adults? So it was just poorly conceived in my opinion. Of 
course, people in the Department of Defense tell me I'm all 
wrong. The State Department said it, too. However, that's just 
the way it is.
    So we are where we are.
    Another concern was that African nations have expressed 
unwillingness to house the Command with the notable exception, 
as I mentioned, of Liberia. In fact, just last month, Liberia's 
President, Ellen Johnson Sirleaf, met with me and other Members 
of Congress and stated her desire once again to have AFRICOM 
headquartered in Liberia. I'm interested as we move along about 
whether the operations will move to Africa, will stay in 
Europe, and if Liberia is one of the countries that would be 
considered. Many others also questioned the Bush 
administration's intentions for AFRICOM and worried about the 
increased military presence and whether this was a reaction to 
China's growing investment in the region and ways of securing 
Africa's valuable natural resources.
    There is no doubt that the Department of Defense have 
resources and capabilities, that's for sure. If used in a 
collaborative way with the Department of State, USAID, as well 
as African military partners, can serve as a valuable 
contribution to the continent. Indeed, there are good examples 
for such collaboration. For example, AFRICOM has utilized 
USAID's conflict analysis of Southern Sudan to inform its 
planning efforts and is assisting in the interagency in 
determining the appropriate approach to supporting South 
Sudan's security sector reform and conflict mitigation 
activities.
    In the DRC, AFRICOM collaborated with State and USAID to 
address sexual and gender-based violence issues which, as we 
know, is very prominent there. The Command used its resources 
to construct or renovate buildings where the government, the 
U.N. or local and international nongovernmental organizations 
delivered services. AFRICOM also oversaw training on preventing 
sexual and gender-based violence for the Congolese Army.
    These successful interventions and training initiatives are 
good examples of how interagency cooperation on security 
assistance in Africa can be very effective and AFRICOM has the 
resources to be a valuable player on the continent. It is 
important, however, that AFRICOM seek to maintain equal 
partnership and does not over reach its mandate and attempt to 
become a leader in the U.S. diplomacy and development.
    While I remain somewhat hesitant about aspects of AFRICOM 
with foreign assistance funds at a risk for significant cuts as 
we move to the next Congresses, I welcome AFRICOM as a partner 
to State and USAID since the Department of Defense is the only 
Department that seems to be able to not have serious cuts.
    I hope to learn about, more about the interagency 
coordination between AFRICOM, USAID, and State Department and 
how this collaboration is benefitting African citizens while 
also advancing American interests. So I certainly look forward 
to the testimony and I yield back the balance of my time, Mr. 
Chairman.
    Mr. Smith. Thank you very much. Mr. Marino.
    Mr. Marino. Mr. Chairman, I have no comment at this time.
    Mr. Smith. Ms. Bass?
    Ms. Bass. Thank you. Once again, thank you, Chairman Smith 
and Ranking Member Payne for convening this important hearing 
to discuss AFRICOM and its role in Africa. I'd also like to 
thank our witnesses who will present testimony today. I look 
forward to hearing more about the inter-departmental 
collaborations and coordinations between AFRICOM and USAID.
    Throughout the hearing, I also look forward to hearing more 
about direct interaction and relationship between AFRICOM and 
African countries. I do understand, as Mr. Payne was 
describing, that many African leaders are concerned and some 
resistant to the idea of AFRICOM headquartered within the 
continent. And I'm interested in assessing the value of 
relocating AFRICOM to the continent both for Americans and 
Africans.
    I would appreciate some additional information about the 
general posture of African leaders and the African Union toward 
AFRICOM at this time. So thank you very much for the taking the 
time out today.
    Mr. Smith. Thank you very much. Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman. I just want to thank 
you and the ranking member, Mr. Payne, for calling this very 
important hearing and I look forward to hearing the testimony 
from our witnesses, this afternoon.
    Mr. Smith. Thank you very much, Ms. Buerkle. Without 
objection, a full biography of each of our very distinguished 
witnesses will be made a part of the record, but I will just 
briefly introduce them to the panel, beginning--although none 
of you are strangers--beginning with Ambassador Donald Yamamoto 
who has testified before us as recently as March at a hearing 
on the DRC and another hearing just a few weeks ago on Somalia. 
He has served since 2009 as the Principal Deputy Assistant 
Secretary for the Bureau for African Affairs of the U.S. 
Department of State. His prior assignments included serving as 
U.S. Ambassador to Ethiopia from November 2006 to July 2009, 
and Deputy Assistant Secretary of State in the Bureau for 
African Affairs from '03 to '06.
    We'll then hear from Ambassador Vicki Huddleston who 
currently serves as Deputy Assistant Secretary for Africa in 
the Office of the Secretary of Defense. Ambassador Huddleston 
began her public service career as a Peace Corps volunteer and 
has held a number of positions in the State Department 
including several in Africa where she served as Acting 
Ambassador to Ethiopia and Ambassador to Madagascar and Mali. 
Throughout her career in the State Department, Ambassador 
Huddleston has worked to advance democracy and to build peace. 
Prior to joining the DoD, she was a visiting scholar at the 
Brookings Institution.
    And finally we'll hear from Sharon Cromer who is currently 
serving as Senior Deputy Assistant Administrator in the Africa 
Bureau for USAID, a position she has held since May 2010. Ms. 
Cromer is a Senior USAID Foreign Service Officer with more than 
20 years of experience in the international humanitarian and 
development assistance area. Upon her return to Washington in 
2009, Ms. Cromer served as Assistant Administrator for the 
Bureau of Democracy, Conflict, and Humanitarian Assistance on a 
temporary basis before assuming the position of Deputy 
Administrator in the Bureau of Management.
    Ambassador Yamamoto, if you would proceed.

STATEMENT OF THE HONORABLE DONALD Y. YAMAMOTO, PRINCIPAL DEPUTY 
ASSISTANT SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Yamamoto. Thank you very much, Chairman Smith 
and Ranking Member Payne and distinguished members of this 
committee. I extend our deep appreciation to this committee for 
this hearing on AFRICOM's partnership with USAID and the 
Department of State in facing the challenges in Africa and 
forming important alliances with Africa's leaders and people.
    AFRICOM's role is a paradigm shift, a new way of doing 
business that makes sense, promotes our national strategic 
interests, and accomplishes our goals and objectives by 
bringing the interagency closer as a team in the most effective 
and innovative manner.
    First, AFRICOM provides greater unity of command on a 
continent that DoD previously split between geographic 
combatant commands, a multiple, functional commands. Further, 
AFRICOM provides a command structure capable of coordinating 
and commanding a multitude of U.S. military components engaged 
in programs in Africa, enhancing DoD's operational 
effectiveness in cooperation with our Embassies, Ambassadors, 
and USAID mission directors.
    In the past several years, DoD components have grown to 
become the largest non-State Department presence in several of 
our missions.
    Second, AFRICOM is an important partner for USAID and 
State, as we seek to tackle problems, pursue solutions and 
expand partnerships in Africa. General Ward, and now General 
Ham, do not merely meet with their military counterparts, but 
also with national leaders, civilian policy makers and play an 
integral part in how we approach Africa, how we develop policy 
and how we execute programs.
    Third, AFRICOM has a civilian Department of State official 
as its deputy commander, as well as other State and USAID 
officers directly integrated into its headquarter structures 
which improves coordinations between agencies which is a unique 
organizational arrangement, not commonly found in military 
formations. Duplicated in other commands, AFRICOM's unique 
approach is directly relevant to Secretary Clinton's launching 
of the QDDR process through which we are rethinking how we do 
business and integrate the interagency in achieving our common 
national goals and objectives.
    AFRICOM, with USAID and State are working together to 
address a multitude of challenges including the conflict in 
Libya; implementation of the comprehensive peace agreement in 
Sudan; stabilization, piracy challenges in Somalia; addressing 
violence in Congo; development in Liberia; promoting training 
and infrastructure development throughout Africa and 
transnational challenges.
    In addition, we are directly collaborating on issues such 
as military professionalization, building counterterrorism 
capacity, disaster management, peacekeeping capacity building, 
humanitarian operations coordinated with USAID, de-mining 
ammunition handling training, nonproliferation of weapons and 
mass destruction, destruction of excess small arms, light 
weapons and ammunition, defense sector reform, maritime safety, 
a whole slew of activities that goes on and on.
    If there's a downside to the level of engagement we have 
seen from AFRICOM, it is that the large number of AFRICOM's 
temporary assignment personnel deployed to the continent often 
present significant logistical challenges for our U.S. missions 
which sometimes find it difficult to maintain full visibility 
and provide adequate support given their own very limited 
staffing levels.
    Additionally, the constant turnover of temporary military 
personnel working on 3 or 6 months' rotations can cause 
significant confusion with both a country team and the host 
nation it carefully manages. Nonetheless, we will continue to 
work together and coordinate closely in order to mitigate and 
manage these challenges which are far outweighed by the 
positive gains that AFRICOM has made in the past 3 years.
    I can report to you today that cooperation between AFRICOM 
and our African partners is at an all-time high, despite the 
lingering wariness toward AFRICOM on the part of some African 
nations.
    Mr. Chairman and members of the committee, thank you again 
for this opportunity to appear before this committee. And I 
submit a longer version for the record.
    [The prepared statement of Ambassador Yamamoto follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Without objection, it will be made a part of the 
record and thank you, Mr. Ambassador.
    Ambassador Huddleston?

 STATEMENT OF THE HONORABLE VICKI HUDDLESTON, DEPUTY ASSISTANT 
SECRETARY OF DEFENSE, OFFICE OF THE SECRETARY OF DEFENSE, U.S. 
                     DEPARTMENT OF DEFENSE

    Ambassador Huddleston. Chairman Smith, Ranking Member 
Payne, thank you, first of all, for your remarks. We very much 
appreciated them. And honorable members of the committee, thank 
you for the invitation to talk with you today about cooperation 
between the U.S. Africa Command, AFRICOM, the State Department, 
and the USAID on the African continent.
    I also want to extend my thanks to my colleagues from State 
and USAID and other witnesses today.
    Since its standup in 2008, AFRICOM has brought long-needed 
integration to the security dimension of our Africa policy. Up 
to that time, DoD had partitioned Africa among three co-COMs, 
EUCOM, CENTCOM, AND PACOM. As a result, Africa did not receive 
the attention it needed. The lack of one command focused 
exclusively on the continent meant that DoD lacked a coherent, 
consistent approach to and an understanding of the region's 
vast complexities. And both the chairman and the ranking 
member, mentioned that.
    One immediate and fully expected outcome of the creation of 
AFRICOM has been the expanded DoD engagement in the U.S. Africa 
policy making and implementation policy. This should have come 
as no surprise. Secretary Clinton has spelled out the three 
legs of national security: Diplomacy, development, and defense. 
Strong diplomacy and robust development programs have served as 
hallmarks of U.S. Africa policy for a half century since the 
end of colonialism.
    Less prominent, however, in that formulation was the third 
leg, defense. The Embassy bombings in Nairobi and Dar es Salaam 
and 9/11 brought home to all of us that we could no longer 
afford to place Africa on the periphery of national security.
    Today, Africa is part of a struggle against violent 
extremism, notably against al-Shabaab in Somalia and al-Qaeda 
in Maghreb in the north and west of the African continent. 
Instability on the continent affects the U.S. homeland directly 
whether threats of terrorism, economic disruption, refugee 
flows or any host of other ways. We now all recognize the need 
to focus equally on the third D of Secretary Clinton's 
formulation.
    We at the Pentagon work closely with AFRICOM and our 
interagency partners at the State Department and USAID to 
ensure that our nation's goals in Africa are well defined and 
our activities are closely coordinated from planning through 
implementation. And just as an aside, I can assure you that 
that has been my highest priority.
    This close coordination occurs at all levels. I meet weekly 
via secure video link with my counterparts on the Joint Staff 
and with senior generals at AFRICOM including J2 Intelligence, 
J5 Strategy and J3 Operations and Logistics. And we meet bi-
weekly with the State Department's Africa Bureau to coordinate 
our policies in security cooperation and our activities. And I 
attend, along with Assistant Secretary of State and my 
colleague, Sharon Cromer on my left, a weekly meeting at the 
National Security Council chaired by the Senior Director.
    Coordination extends much deeper, however, than myself and 
senior staff. Every day action officers in my office, colonels, 
lieutenants, lieutenant colonels, commanders, and the civilians 
are on the phone, emailing and attending meetings on both sides 
of the Potomac River. Such is the frequency of these 
interactions that they are on a first-name basis with their 
State and USAID colleagues. There's extensive cross 
fertilization among agencies, the concrete result of years of 
planning. I have a permanent State
    Department position on my staff and it is currently held by 
a veteran Foreign Service Officer. Likewise, the Regional 
Security Affairs Division of the Africa Bureau has two active 
military colonels on its staff.
    DoD works closely with the State Department to implement 
broad security cooperation efforts, leveraging the 
complementary authorities and funding streams available to each 
department. And this, I think, is really the heart of the 
matter. The State Department, under its Title 2 authority, 
manages security assistance programs to promote U.S. foreign 
policy through diplomacy by building professional militaries 
that respect international law and human rights. These programs 
include the well-known examples of Foreign Military Financing, 
International Military Education and Training, IMET, Regional 
Security Initiatives, and Peacekeeping Operations capacity 
building. DoD plays a crucial role in all those programs in 
their implementation, through our U.S. AFRICOM personnel who 
are on the continent and also through our defense attaches that 
are assigned to the Embassies that are under the authority of 
the United States Ambassadors.
    DoD's Title 10 activities expand and complement these Title 
22 activities of the State Department, thereby furthering USG 
policy objectives set by the Department of State and the 
National Security Council. Title 10 programs fund exercises 
that give African militaries the opportunity to work together 
and often to provide assistance to their citizens. In addition, 
Section 1206 authority allows State and DoD to build 
counterterrorism capacity of our African partners.
    These Title 10 activities reflect our over-arching goals of 
assisting African militaries to protect and defend their 
borders and their citizens. The proposed new Global Security 
Contingency Fund would further this collaborative approach by 
allowing DoD and State to pool resources, thereby facilitating 
our national response to complex crises that require a range of 
military and diplomatic assistance.
    AFRICOM's security sector strategy ensures that our 
national interests are protected from potential threats on the 
African continent while contributing to the stability and 
security for the people of Africa. Ranking Member Payne 
mentioned what is in it for the people of Africa. AFRICOM 
achieves these objectives by building partner nation capacity 
so that our partners can counter extremism and provide for the 
security of their citizens and contribute to peacekeeping.
    In the Horn of Africa, AFRICOM builds capacity of local 
militaries so they can effectively counter extremist threats. 
The State Department's regional program, Partnership for 
Regional East African Counterterrorism, PREACT, provides the 
framework under which AFRICOM's activities are carried out in 
the Horn of Africa. AFRICOM provides military trainers to the 
State Department's African Contingency Operation and Training 
and Assistance Program, ACOTA, that trains Ugandan and 
Burundian contingents that make up the bulk of AMISON 
peacekeepers in Somalia.
    In West Africa, AFRICOM's Special Forces are building the 
capacity of Malian and Mauritanian forces to counter al-Qaeda 
in the Lands of the Islamic Maghreb, AQIM. These efforts are 
conducted under the Trans-Sahara Counterterrorism Partnership, 
TSCTP, that the State Department is responsible for and is in 
coordination with USAID as well. AFRICOM enhances the capacity 
of our key African partners to provide a secure environment for 
democracy, governance, and development. State contractors and 
USAFRICOM trained a battalion in the Democratic Republic of 
Congo and the new army of Liberia. By training professional 
military units that respect civilian control, these militaries 
become important contributors to stability and respect for the 
rule of law. AFRICOM's exercises provide opportunities for our 
African partners to continue perfecting their professional 
abilities.
    The State Department and DoD are committed to helping 
African armed forces prevent and deter tragedies that result in 
humanitarian disasters. In response to congressional 
legislation, State, DoD, and USAID have developed a strategy to 
assist the governments and the armed forces in Uganda, 
Democratic Republic of the Congo, and the Central African 
Republic to counter the atrocities that are being committed by 
the Lord's Resistance Army. AFRICOM's activities will improve 
the regional armed forces' ability to defeat the LRA. In 
parallel, USAID and State are working with local NGOs.
    Today, we are facing a vast humanitarian crisis that you 
mentioned, Mr. Chairman, as a result of the severe drought in 
the Horn of Africa. While State and USAID are leading a 
significant humanitarian response on behalf of the U.S. 
Government, USAFRICOM has set up a task force and is prepared 
to assist in any appropriate way when requested.
    In Libya, USAFRICOM worked closely with State and USAID to 
return thousands of Egyptians stranded in Tunisia to their 
homes. This air bridge complemented AFRICOM's leadership of
    Odyssey Dawn, a coalition of 10 nations that, in accordance 
with United Nations Security Council Resolution 1973, stopped 
the advance of the Libyan Army on defenseless civilians in 
Benghazi, and put into place a no-fly zone, and a sea embargo.
    Thank you, again, Mr. Chairman, and Ranking Member, for the 
opportunity to discuss interagency security cooperation efforts 
in Africa. I believe that AFRICOM's success as a command will 
depend on its ability to coordinate its activities with State 
and USAID and indeed with its African partners and we have much 
improved, AFRICOM has much improved its initial roll-out which 
Ranking Member Payne pointed out was not as successful as we 
would have liked.
    Over the past 2 years as AFRICOM has matured as a Command, 
this cooperation and communication with Africa, and indeed with 
my colleagues here, has improved AFRICOM's ability to build 
partner capacity, respond to the needs of the continent, and 
defend our nation's interests. USAFRICOM is proving the wisdom 
of establishing a single command for Africa that can provide 
rapid and appropriate assistance for a continent with many 
challenges and great possibilities.
    Thank you very much.
    [The prepared statement of Ambassador Huddleston follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ambassador Huddleston, thank you so very much 
for your testimony.
    Ms. Cromer.

    STATEMENT OF MS. SHARON CROMER, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Cromer. Thank you. Good afternoon, Chairman Smith, 
Ranking Member Payne, and distinguished members of the 
subcommittee. Thank you for the invitation to speak with you 
today about how USAID works with AFRICOM to achieve common U.S. 
foreign policy goals. I would like to also thank Ambassadors 
Yamamoto and Huddleston for their work in collaboration. We 
really do meet on a bi-weekly basis and we see a lot of each 
other.
    With the chairman's permission, I will submit my testimony 
in full for the record, but today I will make three brief 
points. The first point is that USAID and AFRICOM engagement is 
mutually supportive of U.S. foreign policy objectives. In other 
words, we have found common ground. Today's world is more 
interconnected and complex than ever. Instability, poverty, and 
disease travel with ease across oceans and borders. Problems 
abroad all too quickly become problems at home. A peaceful, 
healthy, and prosperous Africa benefits us all.
    The link between security and development is as essential 
in Africa as it is elsewhere. War, terrorism, and violence 
threaten current progress and impede potential gains in health, 
education, democracy and economic growth. But with improved 
security, African nations can experience sustained economic 
growth, better living conditions and improved governance.
    USAID coordination with the Department of Defense must not 
be perceived as contributing to specific military objectives, 
but rather as contributing to broad U.S. foreign policy goals. 
While we retain the essential humanitarian and development 
mission of USAID, we have also found mutually beneficial 
opportunities that support the interests of the United States 
and the beneficiaries in the countries in which we work.
    For example, USAFRICOM had a prominent role in helping to 
stabilize Liberia following years of civil war. As a result, 
USAID has worked with the Government of Liberia to develop a 
long-term sustainable health program that is providing the 
essential package of basic health services to the Liberian 
people. This type of work is not possible amidst war and 
strife. The military's logistical capabilities can be 
invaluable assets in providing humanitarian assistance during 
emergencies. Fortunately, we have not had an opportunity to 
call upon them in recent years on the continent.
    Likewise, USAID's unique skills in addressing a range of 
essential civilian needs during both times of peace and war 
substantially and strategically benefit the foreign policy of 
the United States. Thus, USAID's coordination with the 
military's assistance programs can lead to important synergies 
of effort. For example, in some countries where USAID is 
providing assistance and training to teachers in rural schools, 
the Department of Defense's humanitarian assistance teams have 
renovated school structures, including dining halls and 
latrines to improve hygiene and orderliness. This combined 
effort creates a learning environment in which improved reading 
and math skills prevail.
    The second point is that early coordination in the planning 
phase between USAID and AFRICOM has vastly improved since we 
established staffing structures which have been described in 
earlier testimony. This structure includes three officers who--
USAID officers who work at AFRICOM's headquarters in Stuttgart, 
as well as staff--AFRICOM staff who work in our Office of 
Military Affairs in Washington.
    Increased regular dialogue and joint planning helps us to 
align activities from the start, whereas in the past, 
misunderstandings and assumptions and lack of coordination 
could lead to problems in the implementation phase we're now 
planning from the start and avoiding some of those challenges.
    USAID regularly engages with AFRICOM through ongoing 
participation in a variety of strategic visioning and planning 
processes and through regular briefings on particular countries 
and programs. This engagement has included an unprecedented 
level of USAID participation and development of AFRICOM's 
current theater campaign plan which directs AFRICOM's peacetime 
activities across the continent. In fact, just last week at 
USAID, we reviewed this plan with AFRICOM participants, 
identifying common visions and goals and objectives.
    Our work in Djibouti presents an example of how strategic 
alignment produces mutually beneficial results. Previously, the 
Combined Joint Task Force Horn of Africa, CJTF-HOA, proposed 
projects and if USAID and the Embassy concurred, coordination 
with the Government of Djibouti would follow. Under that 
system, projects may or may not have been aligned with local 
development needs and priorities. Under the new framework, 
USAID works with the Government of Djibouti to develop a list 
of needed projects first. While CJTF-HOA, taking into account 
their own objectives and resources, can choose to contribute to 
any such project if it has the endorsement of the Ambassador.
    For example, the opening of the Guistir Clinic near the 
Somali border was the first large-scale project carried out 
under this framework. For years, USAID had been building and 
refurbishing rural health clinics in Djibouti, at carefully 
selected sites. CJTF-HOA constructed the Guistir Clinic in a 
remote border area identified by the Government of Djibouti and 
USAID as a remaining gap in the health care system. USAID's 
assistance complemented CJTF-HOA's efforts by equipping and 
staffing the clinic which today provides access to health care 
for over 400 families.
    The third and final point is that while USAID and AFRICOM 
have notable successes working together, challenges do remain. 
AFRICOM is still relatively new and so, too, is its cooperation 
and collaboration with USAID and other U.S. Government actors. 
USAID is able to program a sizeable amount of foreign 
assistance in Africa through a relatively small number of staff 
members, while AFRICOM has a smaller budget and more available 
staff.
    While USAID is moving to move more resources to Africa, it 
is still difficult as Ambassador Yamamoto pointed out for us to 
engage fully with AFRICOM on the ground, given the fact that 
our staff are so stretched. Nonetheless, the payoffs that can 
result from a comprehensive whole of government approach are so 
important that the effort to coordinate is worthwhile.
    Gains made in civil military coordination need to be 
institutionalized to prevent stagnation and backsliding. We are 
committed to enhancing, monitoring, and evaluation so that we 
can learn from mistakes and amplify best practices.
    The central point of our relationship is clear. Security, 
stability, and peace are essential for economic growth, poverty 
reduction and for development overall. We welcome the continued 
dialogue to ensure the solutions for short-term objectives are 
consistent with our shared long-term goals. Thank you.
    [The prepared statement of Ms. Cromer follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much. Let me just beginning the 
questioning.
    Ambassador Yamamoto, you responded to, and Ambassador 
Huddleston as well, the largely negative reaction that met 
AFRICOM early on. And I'm wondering how that reaction has 
changed, and if so why? Was it a matter of a false impression 
as to what we were up to?
    And if you could perhaps, Ambassador Huddleton, you as well 
answer that.
    Ambassador Huddleston. I think it's changed immensely and 
basically because the countries of Africa have seen AFRICOM at 
work. General Ward was an amazing diplomat for AFRICOM and he 
was all over the continent talking with Presidents as well as 
chiefs of staff of militaries and ministers of defense. General 
Ham has been absolutely the same. He is today, as we speak, in 
Ethiopia. And so they, themselves, have been very, very good 
Ambassadors.
    But what we've done with Africa also makes a huge 
difference because we've done exercises such as Natural Fire in 
Uganda, where we bring the regional militaries together and 
then they carry out an exercise with us that builds a school 
and provides relief in a clinic. So these are things that 
Africans understand. They can see how it's helping their 
military not only to improve their skills, but to work with 
other militaries in the region.
    And then they've seen what's going on, for example, the 
training of a Liberian Army battalion in Kisangani, which has 
now been deployed up into the region where the LRA is active 
and hopefully they'll be able to provide some additional 
protection for civilians in that area.
    Where AFRICOM still runs into problems is on a political 
level, and in that regard, that's because some of the larger 
countries in Africa are worried about is AFRICOM actually 
becoming a competing military. And this is a wonderful 
opportunity just to say no. AFRICOM is on the continent to 
build the capacity of professional militaries under civilian 
control.
    Mr. Smith. I appreciate that.
    Ambassador Yamamoto?
    Ambassador Yamamoto. I concur with Ambassador Huddleston. 
You know, everyone at the roll-out, everyone was talking about 
AFRICOM except AFRICOM. And until AFRICOM was able to 
articulate and define what AFRICOM was about, then we were able 
to engage and overcome a lot of misunderstandings. During the 
questions, we can go into greater detail.
    Mr. Smith. Let me ask you with regards to the constant 
turnover, Ambassador Yamamoto, you mentioned in your testimony, 
causing confusion for the country team and the host nation. 
What are you talking about in terms of how long is the 
deployment and what can be done to remedy that situation?
    Ambassador Yamamoto. I think it would be very difficult 
given the way we deploy forces, etcetera. My son is a first 
lieutenant with the 3rd ID and he was in Iraq and he has a set 
time and he has a set mission. For us in the Africa Bureau, we 
have 1100 officers manning 53 Embassies and consultates in sub-
Saharan Africa. Most of us are committed to the African 
continent and we're experts in the field.
    When we were setting up Camp Lemonnier, as they were 
setting up the camp, we were very struck by the large number of 
different units, but they stayed for maybe 6 weeks or 2 months 
or 3 months, but never any longer. And I think we talked to 
General Franks and later General Abizaid to extend those 
assignments. And that helped a lot now at CJTF, we have 1-year 
assignments. So that is helping.
    But again in other parts of the continent, the assignments 
are very short and so it takes a lot of onus for the 
Ambassador, the DMCs to work with these units to identify what 
are our common goals and objectives.
    Mr. Smith. Ambassador Huddleston, is that being looked at 
as perhaps an area for reform, or are you happy with the way it 
is today?
    Ambassador Huddleston. AFRICOM is very aware of the 
problem. Obviously the State Department is as well and as 
Ambassador Yamamoto said, it has improved significantly in that 
AFRICOM is now assigning for 1 year CJTF-HOA. But actually, one 
of the main problems is that AFRICOM has no assigned forces, so 
they rely on the components, they rely on the Army, they rely 
on the Special Forces, they rely on the Marines to provide them 
with forces to carry out the task on the continent. Obviously, 
our forces are engaged in other important tasks around the 
world and so they sometimes are not available for other than 
short periods.
    We also rely upon the National Guard. Actually, the 
National Guard of Kansas in CJTF-HOA. And of course, their 
families don't want them to be gone for over a year, so these 
are some of the challenges involved in extending the period of 
time on the continent.
    Mr. Smith. Thank you. Let me ask you, you've testified that 
building professional militaries is a function of AFRICOM. How 
has that worked out--if you could perhaps give some examples? 
And in an area that is very close to my heart, human rights 
training, if you could elaborate on what kind of training we do 
provide to African militaries and with particular emphasis on 
trafficking in persons.
    As you may know, I authorized the Trafficking Victims 
Protection Act of 2000 and in 2001, 1 year after that law went 
into effect, a Fox News reporter from Ohio walked into my 
office and said Congressman, you need to look at this. And he 
showed me a videotape of women who had been trafficked from 
Russia, Moldova, the Philippines, and indigenous South Koreans 
who were being abused by American service members. And the 
places of abuse were in absolute proximity to our military 
bases.
    We handed that over to Joseph Schmitz, who was then the IG 
for the Department of Defense. He initiated, and we asked for, 
a global assessment of U.S. complicity, wittingly or 
unwittingly, in human trafficking. And he came back very, very 
disturbed with a very compelling report looking first at Bosnia 
and South Korea, and then the rest of the world. President Bush 
for his part issued a zero tolerance policy and went even a 
step further and changed the Uniform Code of Military Justice 
to include prostitution as an actionable offense. And word went 
out. I read them. I talk about it to other militaries all the 
time and give them copies of it to see that America was serious 
about combating trafficking, that we want to be part of the 
solution, not part of the problem.
    I went to NATO, talked to those folks, and we know Kofi 
Annan did the zero tolerance policy. I think everyone is 
trying, at least, to do a good job there. General LaPorte 
actually testified at two hearings that I co-chaired along with 
people like John McHugh and Duncan Hunter, John, obviously, 
over at the Secretary of the Army. And General LaPorte had a 
best practices which I know has been further refined and made 
even more efficacious, but he talked about the importance of 
having on-base recreation, making sure that the men are aware 
of who it is that they are seeing at 4 o'clock in the morning 
and that the woman is a slave. She cannot leave and if she 
does, she will be beaten. She will be raped again, and we need 
to be on the side of protection and not on the side of 
oppression.
    And I thought he did an outstanding job. Every time I talk 
to a military person in any country, I bring DoD information 
with me and ask them what are they doing to combat human 
trafficking. The question--to make a long story short--is that 
there are 10 countries in Africa, as you know, on the Tier 3 
list as egregious violators of sex trafficking. There are 13 
African countries on Tier 2 watch lists, that could easily drop 
into Tier 3 because of on-going abuse, mostly against women and 
children.
    The question is: Does AFRICOM train other militaries, 
especially their officer corps, on best practices, especially 
those that have been developed so magnificently by the 
Department of Defense so that they get it? The military should 
be on the side of protection, not on the side of exploitation.
    Ambassador Huddleston. Yes sir. And what I often like to 
point out is when we train, when AFRICOM trains, we train to 
U.S. standards and to international law standards on human 
rights and on respect of civilians, whether women or men. And 
what I'd like to point out particularly is when you look at 
Tunisia and when you look at Egypt, both of those militaries 
have significant U.S. and Western training. And both of those 
militaries, as we all know in this room, stood up for the 
people in their country. In Liberia, there was no training by 
Western or U.S. forces and we have seen what has happened 
there.
    The soldiers of AFRICOM and their components only follow 
the highest standards of conduct on the continent and they 
expect their counterparts who are training to do the same. We 
have Leahy vetting. as you're aware that that's those that we 
train. In addition, we provide DILS training and human rights 
training to all forces that we train on the continent.
    And then you ask about what does our training do, can I 
point to some good examples? I recently visited the Liberians 
and I was very impressed with their discipline and also the 
fact that they had formed an engineering battalion. An 
engineering battalion is working with the Bangladeshi 
peacekeepers to do civil military projects. We'd like to see 
more of the militaries of Africa doing civil military projects.
    On the more robust front, since AFRICOM trainers joined the 
ACOTA trainers for the State Department who are contract and 
often former military, we have been able to do COIN training 
which is counter insurgency training. And by doing that 
training, as you can see, the AMISOM forces have actually been 
able to gain area in Mogadishu and also respect better 
civilians who might come into harm's way because they're in the 
conflict area.
    Mr. Smith. Yes, Ms. Cromer?
    Ms. Cromer. Yes. I'd just like to add that in 2009, AFRICOM 
was asked to identify ways to support U.S. efforts in the 
Democratic Republic of Congo to prevent sexual and gender-based 
violence and support survivors. And there, AFRICOM did oversee 
training, but they also in coordination with the Embassy and 
USAID, determined that the facilities that were supporting the 
survivors of gender-based violence was substandard and actually 
put in $1 million to help build up those facilities and 
otherwise support the survivors. So that's another example of 
our coordination.
    Mr. Smith. Thank you. Ambassador Yamamoto?
    Ambassador Yamamoto. Yes, and just to add. It's more than 
just DoD. And DoD does a great job. The Command and Staff 
College in Ethiopia does civil rights and human rights issues, 
but it's also a comprehensive approach in the U.S. Government, 
but also the host nations. And we share your outrage in many of 
the instances and cases that we've uncovered. And we've worked 
very hard with these countries on TR-3 and the other 13 
countries. As you and Congressman Payne have so eloquently 
articulated, we need to stand up and work with these countries 
and host nations to support the development of not only legal 
affairs, but also going after trafficking and righting those 
wrongs.
    As you know, our work in the Congo and other parts of 
Africa, we've done this to the best of our ability in an 
interagency process.
    Mr. Smith. I'll just ask you again on trafficking, could we 
be provided a copy of what it is, a curricular, if you will, of 
human rights training in general, but also with a particular 
emphasis on what it is that we're trying to convey to our 
friends in the African militaries with regards to human 
trafficking.
    Ambassador Huddleston. Certainly.
    Mr. Smith. I appreciate that. Let me just ask one final 
question and that would be in the area of crises. It's been my 
experience, and I'm one of those who believes that the military 
are the ultimate peacekeepers. Without that, we know what chaos 
results, and how innocent victims are killed. But very often, 
even in the area of providing immediate and very effective 
intervention, almost like a trauma surgeon in an emergency 
room, the military have the capacity, the airlift and really 
the capability to go into a situation, stabilize it, pass the 
baton then on to the NGOs and everyone else. I saw it provide 
comfort when the Kurds literally during that first 2 to 3 weeks 
that I was there--5 days after the mass exodus to the Turkish-
Iraqi border. Had it not been for Special Forces actually using 
PSYOPS to put on Meals Ready To Eat so that the MREs would be 
properly opened and eaten and immunizations, everywhere you 
looked you saw Kurds walking around with camouflage jackets 
which were essential to not dying because of the elements. They 
did not have cold weather clothing.
    So the same thing happened in Tbilisi. A week after the 
Russians went in, it was the military that came in with food, 
nutrition--all kinds of nutritional support, medicines. So the 
same thing in Haiti and in the tsunami. I was on the Abraham 
Lincoln briefly. We went to several places, Phuket, Banda Aceh 
and Sri Lanka, but it seemed to me that the entire ship--
everyone on the ship--wanted to go on to Banda Aceh and join 
with the helicopter crews and everyone else in assisting. It 
was unbelievable, the esprit de corps and the sense of 
humanitarianism which the military does not get the credit that 
it deserves for rolling up their sleeves and jumping in and 
helping to assist people who are sick or dying or at risk.
    So my question is, you did mention, Ambassador Huddleston, 
that AFRICOM has set up task forces and is prepared to assist 
in any appropriate way when requested to do so by State or 
USAID with regards to the severe drought. Is it likely that 
there will be an East Africa task force? We know there's 
750,000 people affected, and Ambassador Yamamoto and his team 
and others all testified just a few weeks ago that this crisis 
is huge and getting worse by the day. Are those plans likely to 
be implemented any time soon? Can you give any indication what 
it might look like in terms of airlift and the like to get food 
to people who are starving?
    Ambassador Huddleston. Mr. Chairman, first of all, thank 
you so much for the kind remarks about all the wonderful 
activities and rescue and humanitarian operations at the U.S. 
military has done around the world. Let me just outline this a 
little bit for you and then I'll turn to my colleagues because 
they know it's a very important question.
    Right now we have on our staff, as Ms. Cromer pointed out, 
USAID personnel at AFRICOM and they're staying in close 
coordination. In addition, AFRICOM has developed possibilities 
that it could do, should it be required to do so. But what is 
going on right now is that the U.N. agencies, the NGOs are 
actually already expanding the capacity. There are seven 
additional refugee camps for feeding and distribution in 
Ethiopia. There are two additional camps that can be opened, 
one already opened outside of Dadaab in Kenya.
    So far, the rescue agencies, the international community, 
the NGOs have been able to respond to the situation in Ethiopia 
and Kenya. In Somalia, of course, as we know, that's more 
complicated, but of course, that would be an area that AFRICOM 
would not be welcome, but again, in that area, WFP, UNICEF are 
already pushing to get in there, talking to even al-Shabaab to 
see if they cannot work out ways in which they can get the food 
and water and medical assistance that's so desperately needed.
    So at this point, USAID, State and NSS tell us that they 
have what they need and as we're here to talk about interagency 
coordination, so rest assured we've been attending all those 
IPCs and DCs at the National Security Council to make sure that 
we stay very much informed on what is happening and are 
prepared to assist should we be called upon to do so.
    Mr. Smith. Thank you. Would either of you like to----
    Ms. Cromer. Mr. Chairman, USAID has been monitoring the 
situation in the Horn of Africa since the famine early warning 
system, which we support, alerted us to the onslaught of a 
potential problem last summer. And we have been prepositioning 
food in the region to address the situation.
    To date, we're one of the largest donors in the emergency 
assistance, helping more than 4.6 million people. We're working 
very closely, as Ambassador Huddleston mentioned, with the U.N. 
and other NGOs to address the crisis. The famine has been 
announced for Somalia which is an area, a region in Somalia 
that's very difficult for us, and other organizations, to 
access. And that's been a challenge. At one point this was 
called a traveling famine because of the number of Somalis that 
are moving out of the region into Ethiopia and other regions.
    But to date, we are working very closely with the U.N. and 
other donors and we are coordinating in the interagency with 
our colleagues in defense and if the need should arise, I'm 
sure we would have the support we need.
    Ambassador Yamamoto. And you're absolutely correct. There's 
the short-term crisis that we need to address immediately and 
the refugee flows over 2,000 or so or 1,500 a day into Dadaab, 
Kenya and over 1,000 into Ethiopia. But in the long term, 
because the area is chronically dry, there's not been rainfall 
in 2 years and very little in 5 years in many areas, and so how 
do you address a long-term problem. And those are things that 
we're addressing right now, the interagency process at which 
DoD, USAID and State are very much involved in that and our 
task force is looking at how we can effectively address these 
short-term and long-term problems.
    Mr. Smith. Thank you. Mr. Payne?
    Mr. Payne. Thank you very much. In regard to the drought, 
there was some negotiations, I think, that initially the al-
Shabaab would not allow for humanitarian aid. Then they changed 
and said they were saying it was over played and all that 
business. Well, now that it's very clear as we knew all along 
that it was very serious. They then said yes, you can come in 
with food aid.
    Have they changed again? I understand there may have been 
some withdrawal from the agreement that humanitarian food and 
supplies could come in. What is the--do you know what the 
status is at this time?
    Ambassador Yamamoto. From what we understand, and it's 
still an evolving situation, is that we still cannot get into 
the areas to deliver food. As you know, 60 percent of the 
people who are at risk are still in al-Shabaab-held territories 
and so feeding those areas is very difficult.
    What we're seeing now is not only the flow of refugees into 
Ethiopia and Kenya, but also internally displaced people. Right 
now, Mogadishu, you're seeing an equal number of people going 
into Mogadishu feeling from al-Shabaab-held territory. And so 
that is going to continue to be a problem. So what we're doing 
now is looking at how we can feed the people we have at hand in 
the refugee camps and also internally displaced. Al-Shabaab 
area is going to be a much more long-term problem.
    Mr. Payne. What about the, as we mentioned, the Dadaab 
camp? It's always been over crowded, but now it's unbelievably 
over crowded. I last visited there a couple years ago, it was 
busting at the seams, so I can imagine what it is now. Are we 
getting food aid or working with the U.N. agencies to assist in 
the Dadaab camps?
    Ms. Cromer. Yes, we're getting pre-positioned food and 
other resources to the camp, but this is a large-scale multi-
donor intervention which is underway and the scope is massive. 
We're prioritizing our aid to make sure that the most pressing 
needs are addressed. Our initial response is primarily focused 
on food and water. We're also concerned with the spread of 
disease in these camps as they grow and hygiene becomes an 
issue. So we're addressing all of these.
    Mr. Payne. There's a mass amount of awareness growing and 
first page story on The Washington Post today and just 
yesterday we, 2 days ago, introduced Resolution 361 that 
certainly recognizes the effort that the U.S. is doing and we 
look, urge long-term intervention and in just 2 days we have 
over 50 co-sponsors just with it being known that it's out 
there. So there's certainly a tremendous amount of support here 
on Capitol Hill for what you're doing.
    Just wonder in general, general, you said that the 
perception of AFRICOM is better now. Is it at the point where 
most of the countries are--I mean it's a reality, but what is 
the attitude currently? Is it at the point where you're 
comfortable that you can really move forward, full force in 
what your goals are?
    Ambassador Huddleston. We're quite comfortable with the 
situation as of right now. And as I said, it's even getting 
better because General Ham is following in the footsteps of 
General Ward in making it a point to visit every country. And 
even countries that have had some hesitation about AFRICOM, 
have been willing to work with the components and do exercises 
and development with the components.
    One of the success stories is the African partnership 
station which sends U.S. vessels, Navy or Coast Guard along the 
coast and participates with Coast Guards and Navies in the 
coastal countries to do exercises and to do training. In fact, 
last year, and I forget the name of the vessel that was out 
there, it had seven mariners from various West African 
countries on board when we had the earthquake in Haiti and the 
vessel steamed to Haiti with the permission of the countries 
and that vessel with the officers from the West African 
countries provided assistance to the victims of the earthquake 
in Haiti.
    Mr. Payne. Are there civilian or what percentage is there? 
Can you count a percentage of civilians that are involved in 
AFRICOM other than military or is it 100 percent military at 
this time? I know that they're working with USAID and working 
with State, but AFRICOM itself is strictly military without 
civilians?
    Ambassador Huddleston. As Ambassador Yamamoto and Ms. 
Cromer mentioned, AFRICOM has a Deputy Commander. It has two 
Deputy Commanders. One of the Deputy Commanders is a State 
Department active duty officer. He's a former Ambassador. 
AFRICOM also has a State Department officer who is the head of 
their Outreach Division which is one of the major divisions of 
AFRICOM.
    AFRICOM also has several USAID officers embedded in their 
Planning and Strategy Division to include this very excellent 
USAID person that is excellent on drought and humanitarian 
relief.
    In addition, AFRICOM hires civilians so they have a number 
of civilian advisors. So they have a significant contingent of 
civilians in the command just as part, just like at DoD, 
myself, we have a significant portion of our workforce that are 
civilian and that is also the case for AFRICOM.
    Mr. Payne. I had an opportunity to fly to Djibouti with 
General Ham and do think that he's certainly an adequate 
replacement although General--what was his name again, who just 
retired?
    Ambassador Huddleston. General Ward.
    Mr. Payne. Ward, yes, he's got big feet so it's going to be 
a hard act to follow, even though I was not supportive. But the 
headquarters issue, how much of an issue is that? It's 
currently been talked about bringing it to the United States. 
Of course, the question of whether it should be on Africa soil, 
how much of a question is that and how is the logistics going 
as relates to its headquarters?
    Ambassador Huddleston. As you know, since its inception, 
AFRICOM has been stationed in Stuttgart and at this point there 
would be significant budgetary implications if AFRICOM were to 
pull up its roots which is to some degree in Stuttgart and 
move. AFRICOM, however, is very much aware that it has a study 
to complete about where would be the most appropriate location.
    Mr. Payne. I think you mentioned it before, but what is the 
relationship with AFRICOM and AMISOM's mission in Somalia with 
the TFG and their military operation? And actually, is the 
AFRICOM looking at Somaliland or Puntland as it deals with the 
Horn and with Somalia, in general.
    Ambassador Huddleston. Thank you, Congressman. That 
actually gives me the opportunity to talk a little bit about 
Title 22 and Title 10. As you're aware, AFRICOM cannot do 
training or equipment with its own funds which are Title 10. 
Therefore, any training that AFRICOM is doing in Africa is 
being done either with 1206 which are combined funds or with 
PKO or State Department Title 22 funds. In other words, all 
training on the continent is with State Department funds, 
therefore, everything that's done in training is authorized by 
the State Department.
    What we were very pleased about with AFRICOM is that State 
Department invited AFRICOM trainers, some Special Forces to 
come and train with the training that they were providing to 
the Ugandans and the Burundians because as you know, Mogadishu 
is a pretty violent place.
    Mr. Payne. I know.
    Ambassador Huddleston. So some of the experience--yes, I 
guess you do know. I'm glad they missed you.
    Mr. Payne. I am, too. I saw President Sheik Sharif in 
Djibouti at the celebration of South Sudan and he did ask me 
when I was coming back. I told him my send-off wasn't so hot, 
but I'll take another look at it.
    Ambassador Huddleston. Yes, I imagine diplomatic security 
is not keen for you to return any time soon.
    Mr. Payne. They didn't want me to go in the first place, as 
you know.
    Ambassador Huddleston. Indeed. So that's what AFRICOM has 
done is to provide some trainers to work in parallel and with 
their ACOTA trainers to provide additional training for the 
Ugandans and Burundians that are deploying to Mogadishu.
    Mr. Payne. Just a final question for you, there is a 
proposed cut in our peacekeeping budget here and I wonder, you 
know, how the security assistance would trickle down to what 
AFRICOM is intending to do or--not AFRICOM necessarily, but as 
you know, the mission in Somalia is under the U.N. and 
therefore it depends on U.N. peacekeeping allotments. How do 
you see some of our, and of course, the new one that we're 
trying to stand up in South Sudan on the borders around Abvei 
and other areas in question, South Coeur d'Enfant. How do you 
see that playing out?
    Ambassador Huddleston. Since these are our Title 22 funds, 
I am going to ask my colleague, Ambassador Yamamoto, to answer.
    Ambassador Yamamoto. Just going back on PKO funding and 
others. As you know, we provide about $265 million with your 
approval on PKO, IMET, and FMF and of the PKO funding about 15-
20 percent of that goes to DoD to help us send assistance 
levels in training programs, etcetera for AMISON and other 
programs. As you know, in the Somalia area, we have $42 million 
dedicated to AMISON training programs equipping safety, 
security, etcetera. And so a cut or a decrease in that amount 
would affect, obviously, the operations and also stabilization 
efforts.
    The other issue, too, as you raise in Sudan is how do we 
address the recent deployment of 1600 troops from Ethiopia into 
Abyei and then the continuation of course, is in Darfur and 
also anticipated what do you do in the Coeur d'Enfant area to 
stabilize that area?
    So right now the $265 million that we had in 2010, that's 
not a very large amount of money. So if we decrease that, then 
there's an ability to work with DoD and host nations and other 
groups to do training, equipping and security sector reform and 
stabilization will be affected.
    Mr. Payne. My final question, Ms. Cromer, I think it's 
great and it's certainly with these various titles what you can 
do. I always felt the USAID, it would be great if they had an 
opportunity to dabble in education more, some of the physical 
facilities. We see that the Department of Defense can fix up a 
school, however. USAID can't, you know. And of course, we've 
been concerned about the educational situation in Africa, as we 
know many of the countries now have moved to so-called 
universal education where there may be some school fees, there 
is kind of universal education in most of the countries and the 
girl child, as you know, as been included which is a great step 
in the right direction. We're looking now at how can we assist 
in higher education which I mean secondary, of course, and 
higher education as Africa develops.
    I wonder how do you see the interaction between the 
Department of Defense that can do things with USAID and your 
restrictions. And there's a second and final part and question, 
we've had some concern about the nutritional components of 
USAID's food and--there are two reports that have come out 
about--there's not a request for additional funds, but that 
they look at the nutritional value of the--who did that? Tufts? 
GAO also did a report on the nutritional values we find that 
there's some excellent recommendations and I would hope that 
you would take an opportunity to look at that and we would 
really like to talk to you about it.
    I had a resolution to say that we should do something about 
it and it ended up 21 to 21, so I didn't win. Mr. Smith did 
vote with me on that resolution on the food, just trying to 
make it more nutritional. So if you could just answer those and 
I'll yield back to the chairman.
    Ms. Cromer. Thank you, Congressman Payne. We have at USAID 
new education policy that we are trying to implement. The focus 
of the policy is on reading with understanding, primarily at 
the basic education level. This policy doesn't necessarily 
prohibit renovating structures, but it's with reduced funding. 
We find that we're not able to do very much of that. So we do 
relish the opportunity to work with AFRICOM and identify 
synergies where we have common goals and they can help us in 
renovating schools.
    We do see that we as some of our education programs are 
diminished, due to lack of funding and a need to focus, it 
would be an opportune time to have a different dialogue with 
some of our African country partners about the funding they 
provide in their own development planning and programming. And 
taking what they do and trying to make it more efficient. We're 
looking at working with some of our African partners to look at 
their public financial management systems, trying to streamline 
those systems, make them more transparent, make them more 
robust so that all of the revenues going through our country 
partners are used to address key development challenges like 
education.
    So if we can help those partners strengthen their own 
systems so their own resources are used more effectively, then 
we can see some achievement in education and the monies that we 
put into those sectors will go longer and for more sustained 
development objective.
    On nutrition and the GAO report that you mentioned, I'm not 
familiar with that particular report, but we can get a response 
to you on that.
    Mr. Payne. Thank you very much. I yield back my time.
    Mr. Smith. Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and Ranking Member 
for this hearing and for our panelists being here and special 
thanks to Ambassador Yamamoto for your hospitality in getting 
to see your work really on the ground firsthand when we visited 
Ethiopia a few years ago.
    I want to start with really a question for all the 
panelists here today. I'm particularly interested to hear about 
our plans for post-conflict in Libya. I certainly want to 
acknowledge the significant variations in histories and 
cultures and size and scope of our recent interventions in Iraq 
and Afghanistan and I believe that insufficient and disjointed 
planning for post-conflict stabilization there set a poor 
precedent for NATO operations in Libya.
    But as different parties come together on this issue, what 
is AFRICOM doing to prepare for a post revolution in Libya? 
What role does AFRICOM have after any political resolution? And 
finally and most importantly, how is AFRICOM working with State 
and USAID on this effort? And let's start with Ambassador 
Yamamoto?
    Or Ambassador Huddleston, why don't you start?
    Ambassador Huddleston. Mr. Carnahan, the only reason I'm 
starting is because normally it would be Ambassador Yamamoto, 
but he is responsible for sub-Saharan Africa and he is not 
responsible for North Africa because that falls under the 
Middle East Division. So ironically, I'm the only spokesperson 
here among the three of us who can speak to North Africa 
because AFRICOM was formed as a command for the whole 
continent, except for Egypt and Egypt remains in the CENTOM or 
the Middle East Command.
    So I will have to apologize in that I'm sure that my State 
Department colleague, Ambassador Feldman, could do a better job 
of answering your question than I can, but let me give it a 
try.
    Mr. Carnahan. We're happy to hear from you. Thank you.
    Ambassador Huddleston. Thank you very much. Let me just go 
back for a moment to the beginning because I'd like very much 
to point out what President Obama said. President Obama said 
that we had an international mandate. We had a broad coalition. 
We had the support of the Arab League. And we had the pleas of 
the Libyan people to go into Libya. And we did and it was 
really quite an amazing thing in that the new commander of 
AFRICOM, General Ham, had only been in that position for less 
than 2 weeks. And AFRICOM became the leader of a coalition of 
10 nations including two Arab nations that put in place the no 
fly zone, the sea embargo, and most importantly, protected 
800,000 people in the city of Benghazi from certain deaths, 
certainly to many of them.
    Now that coalition has been handed over to NATO and that, 
too, has been pretty amazing and pretty unique and impressive 
in that AFRICOM began the implementation of the no fly zone and 
protection of civilians on March 19th and they turned over all 
four missions to NATO on the 31st of March, 14 days later.
    So AFRICOM is not a major player in any way now in the on-
going NATO operation. AFRICOM has retained responsibility for 
recovery, should that be necessary. So the U.S. forces that are 
contributing to NATO come directly from the components, most 
particularly from the dual-hatted Navy commander for Europe and 
Africa and that's Admiral Locklear. And as you know, Canadian 
General Bouchard is the responsible person for NATO.
    So AFRICOM itself is not the major player it was at one 
time, but you ask what would AFRICOM do in a post-Gaddafi? 
Well, we have made it clear, as well as NATO, that we did not 
envision boots on the ground in Libya. So it would in a fairly 
far future post-Gaddafi Libya when the situation had returned 
to normal, Embassies were reestablished, that there might be 
something like a defense attache and an Office of Security 
Cooperation and that with the new democratic Libyan Government, 
we might have the opportunity then to do some training with our 
State Department colleagues and the State Department funds of a 
new and responsible and democratic Libyan Army.
    Mr. Carnahan. Thank you. Mr. Cromer, did you have anything 
to add?
    Ms. Cromer. Excuse me, like my State Department colleague, 
as Ambassador Huddleston said, we focus at USAID in the Africa 
Bureau on sub-Saharan Africa. So our operation doesn't cover 
North Africa.
    Mr. Carnahan. Thank you. Also, I wanted to ask, getting 
back to Ms. Cromer, about Somalia with on-going drought in the 
Horn of Africa and the humanitarian crisis, the scope of which 
we haven't seen for decades. Last week, the U.N. officially 
declared a famine in two regions of Somalia.
    Could you give me and the subcommittee an update on the 
response to the crisis as well as partnerships with other key 
organizations that you're working with?
    Ms. Cromer. Yes. As you've stated, the scale and severity 
of the famine in southern Somalia represents a most serious 
food and security situation in the world today. And as a multi-
donor response that's underway, we're prioritizing our aid to 
make sure that the most pressing needs are addressed. At this 
point, we are primarily focused on food and water and we're, as 
I mentioned earlier, concerned with the spread of disease and 
so we're working to expand our health and hygiene response.
    In Somalia, the World Food Program is considering 
strategies to counter the deteriorating food situation. They're 
looking at various options to address the nutrition situation 
in southern Somalia. They're doing an in-depth food, urban food 
and nutrition security assessment in 16 districts of Mogadishu. 
And the assessment will seek to measure the number of food-
insecure people by district. So with this information, the 
international community, particularly WFP, will be guided to 
program their interventions in a more targeted fashion.
    The access to the most food-insecure populations is still 
an issue that's being worked out. But it is a serious concern.
    Mr. Carnahan. Thank you.
    Mr. Smith. Thank you, Mr. Carnahan. Let me ask just a few 
final questions. First, on Friday, I chaired a hearing on the 
Helsinki Commission on Egypt, and I know none of you deal with 
Egypt, but you'll know why I raise it in a moment, and that is 
the barbaric practice that has gotten worse, according to our 
witnesses, that young Coptic Christian girls are being abducted 
and sold into modern-day slavery and forced marriages, again, 
thousands per year. It's been largely ignored, if not under-
appreciated by many in the human rights community. We had a 
very credible panel that spoke to this egregious practice. And 
the women are forced to become Muslim, and then they're given 
to a man and then they and the children they bear are Muslim.
    And I'm wondering: In Egypt today, the military does 
control that government. What kind of human rights training, 
Ambassador Huddleston, I think you're the one to speak to this 
when it comes to religious freedom, do the militaries get in 
terms of tolerance? We know that at the core of many of these 
conflicts it has been, including Sudan, the imposition of 
Sharia law, particularly with the invasion of the south of 
Sudan. That was a mainstay issue. It's also been a problem 
obviously in Darfur, but especially in southern Sudan.
    I recently met with a Catholic bishop and an imam who 
couldn't make the meeting, but his representative was there 
from Nigeria, who spoke how they had gone from village to 
village preaching a sense of tolerance and respect for all 
religions, but in this case those two major religions, 
Christianity and Islam and I'm wondering if in our training on 
human rights if there's a religious freedom component to 
emphasize with exclamation points why all of us need to respect 
the other person's faith and that forced Islamization, the 
imposition of Sharia law or any creed is not following 
fundamental human rights policy. Is that something that's 
taught?
    Ambassador Huddleston. Mr. Chairman, I'm sorry to hear 
about that situation that you were explaining in Egypt. I do 
not know the particulars of all the training and all the human 
rights training that is performed by our soldiers overseas, but 
I can get you the curriculum. And I can also say that I think 
that what you will probably see is what we teach is respect for 
human life, respect for human dignity, respect for the rule of 
law and the constitution and the people of a country, all of 
which, in essence, means respect for tolerance and different 
religious beliefs, but I'll be happy to get a transcript and 
provide it.
    Mr. Smith. And if you could, if it's not being done, if 
it's something that could have been considered when the 
International Religious Freedom Act was passed in 1998, and I 
chaired all the hearings on it. It was Congressman Frank Wolf's 
legislation, and there was profound pushback from many in the 
Department of State, including the White House, against that 
legislation, and one of the components that we wrote into it 
was the training of foreign service officers on religious 
freedom matters.
    And I say without any fear of contradiction that the 
pushback was profound. The Assistant Secretary for Democracy of 
Human Rights and Labor testified at our hearing saying they 
were against the bill. I'm sure they're for tolerance, but they 
were against this legislation. So I would hope you could get 
back to us on that; it would be very helpful.
    [Note:
    The information referred to appears in the appendix.]
    Mr. Smith. And finally, you cite, Ms. Cromer, in your 
testimony a 2010 assessment that shows that of the 25 countries 
having the highest instability, 22 are in Africa. And I'm 
wondering if there's any--now 3 years into AFRICOM--if there's 
been any improvement as a result of that combatant command 
being stood up?
    Ms. Cromer. Well, we can certainly cite Libya as a very 
good example of the improvement in the security situation which 
allows for improved economic growth and development in health 
and education. I'm sure there are other examples that we can 
provide, but again, having a professional military that 
respects human rights and respects good governance and 
democracy is a profound effort to move forward in any 
development situation.
    We really cannot proceed with our development interventions 
in good measure if we don't have peace and security. So what 
AFRICOM has done on the continent to enhance the 
professionalism of militaries and support human rights and good 
governance is absolutely essential to what we do in 
development.
    Mr. Smith. Mr. Payne?
    Mr. Payne. Just one last question. The fact that the LRA 
and Mr. Kony have been roaming around for 20 some years, it 
just seems to me that--not that it's AFRICOM's situation, but 
it would seem to me that there should be some more coordinated 
effort to try to bring him to the International Court of 
Justice. And I just wonder if--and Mr. Yamamoto has had a lot 
of history in Africa and certainly has known about the LRA or 
you Ambassador Huddleston, could give a brief synopsis of any 
knowledge you have of a concerted effort to bring Mr. Kony to 
justice.
    Ambassador Yamamoto. And that's a very tough issue that we 
have been addressing for years with you and other members. 
Right now, as DoD and State Department and USAID, all the 
interagencies is combined together to (a) support the UPDF in 
their operations against Kony, specifically in the CAR. They 
have distribution points in Obo and from there the UPDF is able 
to bring their equipment and supplies into the front lines to 
go after Kony's troops. We have provided on average in the last 
quarter about $3 million to support for supplies, fuel, rentals 
of equipment and helicopters to bring the supplies up to Obo 
and from there to transport them to the UPDF forces.
    We're also working with the President Bozize in CAR to look 
at training troops there to form a blocking force against Kony 
and then with other neighboring states particularly with 
MONUSCO and DRC FARDC troops and other troops as well. It's a 
very tough fight and it's going to continue until this is 
brought to conclusion.
    Mr. Smith. Would any of you like to conclude with any final 
remarks?
    Yes, Ambassador Huddleston?
    Ambassador Huddleston. I didn't want to miss the 
opportunity just to say that first of all we appreciate very 
much that you're having the hearing, Mr. Chairman, Ranking 
Member, and also to underline the fact because the ranking 
member began with this roll-out of AFRICOM was very difficult 
and really it's a great credit to our service men and women and 
to the leadership of AFRICOM that they've really turned that 
around because they've not only turned it around with the 
African governments, but they've turned it around with our 
colleagues, the State Department, and USAID as you have heard 
here today.
    I think AFRICOM really is making a great difference on the 
continent because as we all know, it begins with security. And 
there can't be democratic governments or can't be human rights 
or can't be development unless there's security. And by giving 
the local militaries the ability to provide for security for 
their people it makes all the difference. So thank you very 
much for this opportunity.
    Mr. Smith. On that very encouraging note, the hearing is 
adjourned.
    [Whereupon, at 3:50 p.m., the hearing was concluded.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    <F-dash>\<Copyright>a<natural><Rx>a<star>a<Rx><ellipse><ellipse>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   <F-dash>\<Register><box>s<sharp><pound><Rx>s<box> t<pound> <flat> 
            <star><brit-pound><natural><careof><Rx><bullet> 
      <star><box>a<natural><careof><Rx><bullet><ellipse><ellipse>
              <Hoarfrost><acctof><careof>t<star><o-times>
     <H-dash><brit-pound><star><star><script-l><box>st<pound><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
             <Copyright>a<natural><Rx>a<star>a<Rx><o-times>
     <H-dash><brit-pound><star><star><script-l><box>st<pound><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
